<html>
<title> - CAMPUS CRIME: COMPLIANCE AND ENFORCEMENT UNDER THE CLERY ACT</title>
<body><pre>[Senate Hearing 109-590]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-590
 
      CAMPUS CRIME: COMPLIANCE AND ENFORCEMENT UNDER THE CLERY ACT

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2006

                               __________

                       PHILADELPHIA, PENNSYLVANIA

                               __________

                          Serial No. J-109-79

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
30-043                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       COMMITTEE ON THE JUDICIARY

                 ARLEN SPECTER, Pennsylvania, Chairman
ORRIN G. HATCH, Utah                 PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
JOHN CORNYN, Texas                   CHARLES E. SCHUMER, New York
SAM BROWNBACK, Kansas                RICHARD J. DURBIN, Illinois
TOM COBURN, Oklahoma
           Michael O'Neill, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                     STATEMENT OF COMMITTEE MEMBER

                                                                   Page

Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     1

                               WITNESSES

Adamany, David, President, Temple University, Philadelphia, 
  Pennsylvania...................................................    14
Adler, Madeleine Wing, President, Drexel University, 
  Philadelphia, Pennsylvania.....................................    15
Baker, Robert, Region III Representative for Secretary of 
  Education Margaret Spellings, Department of Education, 
  Washington, D.C................................................     4
Carter, S. Daniel, Senior Vice President, Security on Campus, 
  Inc., Philadelphia, Pennsylvania...............................    12
Mattioli, Bill, Director of Public Safety, St. Joseph's 
  University, Philadelphia, Pennsylvania.........................    25
Meehan, Patrick, U.S. Attorney for the Eastern District of 
  Pennsylvania, Department of Justice, Washington, D.C...........     6
Papadakis, Constantine, President, Drexel University, 
  Philadelphia, Pennsylvania.....................................    17
Rush, Maureen S., Vice President, Division of Public Safety, 
  University of Pennsylvania, Philadelphia, Pennsylvania.........    19
Santorum, Hon. Rick, a U.S. Senator from the State of 
  Pennsylvania...................................................     2
Stack, Reverend John, Vice President, Student Life, Villanova 
  University, Villanova, Pennsylvania............................    21
Turzanski, Edward A., Esq., Counsel to the President of La Salle 
  University, Assistant Vice President for Government and 
  Community Relations, Philadelphia, Pennsylvania................    24

                       SUBMISSIONS FOR THE RECORD

Adamany, David, President, Temple University, Philadelphia, 
  Pennsylvania, statement........................................    35
Adler, Madeleine Wing, President, Drexel University, 
  Philadelphia, Pennsylvania, statement..........................    38
Baker, Robert, Region III Representative for Secretary of 
  Education Margaret Spellings, Department of Education, 
  Washington, D.C., statement....................................    40
Carter, S. Daniel, Senior Vice President, Security on Campus, 
  Inc., Philadelphia, Pennsylvania, statement....................    54
Mattioli, Bill, Director of Public Safety, St. Joseph's 
  University, Philadelphia, Pennsylvania, statement..............    56
Papadakis, Constantine, President, Drexel University, 
  Philadelphia, Pennsylvania, statement..........................    58
Rush, Maureen S., Vice President, Division of Public Safety, 
  University of Pennsylvania, Philadelphia, Pennsylvania, 
  statement......................................................    61
Turzanski, Edward A., Esq., Counsel to the President of La Salle 
  University, Assistant Vice President for Government and 
  Community Relations, Philadelphia, Pennsylvania, statement.....    64


      CAMPUS CRIME: COMPLIANCE AND ENFORCEMENT UNDER THE CLERY ACT

                              ----------                              


                          FRIDAY, MAY 19, 2006

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:06 p.m., at the 
National Constitution Center, Philadelphia, Pennsylvania, Hon. 
Arlen Specter, Chairman of the Committee, presiding.
    Present: Senators Specter, Santorum.

 OPENING STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM 
                   THE STATE OF PENNSYLVANIA

    Chairman Specter. Good afternoon, ladies and gentlemen. We 
will now proceed with an oversight hearing under the auspices 
of the Senate Judiciary Committee and under the auspices of the 
Senate Appropriation Subcommittee on Labor, Health, Human 
Services and Education.
    We are going to be examining today the enforcement of the 
Clery Act, an act named for Jeanne Clery, who was a 19-year-old 
freshman at Lehigh University back in 1986 when she was the 
victim of a brutal rape and murder. Her parents came to me at 
that time, and the Clery family has, in the intervening years, 
become crusaders for campus safety. As a result of their 
initiative, we enacted legislation which requires universities 
and colleges to report what is happening on the campuses with 
respect to violence and criminal activity.
    The enforcement has been under the Department of Education, 
and it appears, and this is subject to our oversight inquiry, 
that the Department of Education has not done an adequate job 
of enforcing the statute.
    I'm advised that since the statute was enacted, which was 
20 years ago, there have only been three enforcement 
proceedings at which fines were levied. We'll be asking Mr. 
Baker, who's the representative of the Department of Education, 
about that here later this afternoon.
    There was an extensive story in the Philadelphia Inquirer 
back in January which particularized what's happening on local 
campuses, and the picture was not good. The picture was very 
bad. The local universities had been reporting very little in 
the way of crime statistics, and then once the Inquirer started 
to investigate, stir it up, suddenly reports were modified and 
amended.
    This is a very, very important statute, because if you do 
not know what is happening on the campus, parents cannot make 
an evaluation as to where they want to send their children to 
school. And if you don't report what is happening on the 
campus, students and parents are not able to protect 
themselves. And if you don't report what is happening on the 
campus, then the campus officials are not alerted to the need 
to provide some local policing, and the local law enforcement 
officials and the local police are not on notice. So we're not 
kidding when we say this reporting is important. And it's not 
been done.
    Senator Santorum and I have been discussing this situation 
and we want to find out what the facts are. But based on what 
we see on the record, we would have to move from the Department 
of Education to the Department of Justice. The Department of 
Justice is in the business of enforcing the law, but so is the 
Department of Education. We may have to move away from just 
fines to criminal jail sanctions.
    There's a rising debate as to the extent to which tougher 
statutes should deter street crime, but there's no debate about 
criminal penalties and jail deterring white collar crime. I'll 
be looking for confirmation of that by U.S. Attorney Pat Meehan 
in a few minutes, but I was a district attorney for quite a 
while and I know the impact of jail sentences on white collar 
crime.
    We have some of the leading professionals in this audience 
today from the universities, and the universities in this 
community and America at large do a great job. They do the 
impossible job. They've educated Rick and me.
    [Laughter.]
    Chairman Specter. We're a big university town and I'm very 
proud of what goes on in this city and what goes on in this 
State and what goes on in the country. And the university 
administrators want to do the right thing, but there's going to 
have to be a different degree of vigilance if we're to see that 
this Act is enforced.
    Let me yield now to my distinguished colleague, Senator 
Santorum.

STATEMENT OF HON. RICK SANTORUM, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Santorum. Thank you, Senator Specter. I just want 
to thank you first for the work that you've done in the past on 
this legislation. As the author of the Clery Act, you should 
take great pride in the amount of comfort that you've given to 
many parents and children as they search for the college they 
want to attend and get the relevant information that they need 
to be able to make that decision. Through your work, through 
your continued diligence in making sure that the Act is 
complied with, you have provided a lot of help to a lot of 
parents and a lot of kids.
    As the father of two teenagers, one of whom will be a 
sophomore in high school this year, we're just beginning to 
take a look at what colleges and universities that may be on 
her agenda. I will tell you, as a parent, I certainly want to 
know that information, and I want to know that that information 
is accurate. I think that's the least that we can provide, that 
if we have a statute on the books that is there to inform 
parents and kids as to what the crime statistics are, that the 
statute is being enforced and the information that they are 
being given can be relied upon. Otherwise, ill-informed 
decisions are made, and sometimes that can lead to bad 
consequences.
    I congratulate you, Senator, for the work you're doing, I 
congratulate you for this hearing. I want to say that I do also 
have concerns about whether the Department, given its record of 
enforcement, is, No. 1, committed to enforcement; and, No. 2, 
is capable of adequate enforcement.
    Hopefully, this hearing today will shed some light on both 
of those things, their level of commitment and their ability to 
be able to do this job and do it effectively, and whether there 
are alternatives, as Senator Specter suggested we could look 
at, whether this needs to migrate over to an agency that is 
more in line with uncovering criminal activity, and that would 
be the Justice Department.
    Second, I think, Senator, you mentioned the other issue 
here, which is the fact that the Department has not fined any 
of these colleges and universities. We see from ample evidence 
on the record that many colleges and universities have failed 
to comply with the Act, yet very few have been fined.
    I'm not a big guy going around that we need departments in 
government running around fining everybody at the drop of the 
hat. I very much believe in a regulatory environment that 
encourages compliance and that is not driven by penalties.
    But when we see that there is not compliance and that 
problem seems to be a persistent problem, and then we see no 
penalties on top of it, then I'm wondering whether you have 
neither a compliance or a criminal approach to the problem, and 
that is just candidly not acceptable.
    Final point Senator Specter made, which is the nature of 
the enforcement, whether fines are sufficient. I certainly 
would hesitate to increase those penalties to include prison 
time, but I'm hopeful that we can stop short of that and that 
we can see a better record of compliance.
    Let me just suggest that if that is not forthcoming, that 
those are options that certainly have to be discussed and laid 
on the table.
    Again, Mr. Chairman, you've been a busy man this last week 
or two. In fact, you've been a busy man this year on a whole 
lot of issues. For you to take the time to focus on this I 
think just shows your commitment to this issue, and you're to 
be congratulated for your determination in making sure that 
this law is adequately enforced.
    Chairman Specter. Thank you very much, Senator Santorum. 
Thank you for your participation and thank you for the 
outstanding job you're doing in the U.S. Senate for the 12 
million people in Pennsylvania.
    I want to acknowledge the presence today of Mrs. Connie 
Clery, Jeanne Clery's mother, who has been a real crusader on 
this issue, and also Mr. Benjamin Clery, brother of Jeanne 
Clery, who is president of Security On Campus.
    We turn now to our first witness, who is Mr. Robert Baker, 
the Region III representative for the U.S. Secretary of 
Education. I'd hoped the Secretary could have been here, but 
she's in Europe at the present time. We have a little bit of 
sway on her scheduling since we appropriate $52 billion a year 
for her department in the Subcommittee which I chair.
    Mr. Baker has his BA degree from University of 
Pennsylvania, 1973; he has served as deputy secretary of the 
Department of Labor and Industry of Pennsylvania; deputy 
secretary of the Pennsylvania Department of Commerce. He will 
put a more expansive statement in the record.
    We have 5 minutes for each witness, and the floor is yours, 
Mr. Baker.

   STATEMENT OF ROBERT BAKER, REGION III REPRESENTATIVE FOR 
   SECRETARY OF EDUCATION MARGARET SPELLINGS, DEPARTMENT OF 
                  EDUCATION, WASHINGTON, D.C.

    Mr. Baker. Thank you, Mr. Chairman, Senator Santorum, thank 
you for providing me the opportunity to appear before you today 
to talk about the U.S. Department of Education's implementation 
of the Jeanne Clery Disclosure of Campus Security Policy and 
Campus Crime Statistics Act.
    Crime on college campuses is a priority on parents' minds 
as their children leave home to attend college. As a parent of 
a son who is attending West Chester University and will be 
transferring to the School of Engineering at Temple this fall, 
I am deeply concerned about campus security.
    When we send our children off to college, we expect the 
college or university to ensure that they're learning in a safe 
environment, free of concern from crime. Practically, we 
realize that no school, just like no community, is crime free, 
and as parents we must make an informed decision whether or not 
a certain school might expose our child to undue risk. The 
reporting requirements of the Clery Act provide important 
resources to parents and students to help them make that 
determination.
    The Department's committed to assisting institutions of 
higher education in providing the students nationwide a safe 
environment in which to learn and to keep students, parents, 
and employees well informed about campus security.
    To help institutions comply with the requirements of the 
Clery Act, the Department, at the direction and urging of 
Congress, published The Handbook for Campus Crime Reporting in 
June 2005. The handbook was developed in response to the needs 
expressed by the community for more detailed and complete 
guidance on Clery Act implementation.
    The Department has provided training for institutions, 
campus security administrators, law enforcement, law 
enforcement associations, and Department staff. Since 2002, 
approximately 1,000 individuals have participated in our 
training activities. The Department also plans to provide 
additional training to Department staff in all aspects of the 
Clery Act in October of this year.
    We have achieved great success in our data collection. With 
the exception of institutions that were affected by Hurricanes 
Katrina and Rita last year, we have had a 100 percent response 
rate in each of the past 6 years. We are proud of this response 
rate and believe that it demonstrates a commitment by 
institutions to comply with the spirit of the Clery Act. It 
also demonstrates the strength of the Department's 
determination to ensure compliance with the Act.
    Campus safety is a collaborative effort among various 
components of institutions of higher education and local law 
enforcement. On occasion collaboration also extends to the 
Federal level to the Department of Education, the U.S. 
Attorney's Office, and the Federal Bureau of Investigation. In 
addition, it would be difficult to accomplish our 
implementation and enforcement efforts without the assistance 
of groups such as Security On Campus and the International 
Association of Campus Law Enforcement Administrators.
    The Department suggests ongoing monitoring of institutions 
of post secondary education that participate in the Federal 
student aid programs. We look at compliance with Clery Act 
requirements as a part of each and every program review we 
conduct.
    The Department also conducts focused campus security 
program reviews to determine whether an institution is in 
compliance with the Clery Act.
    Between 1994 and 2006, the Department conducted 4,623 
program reviews, 17 of which were focused on campus security 
and compliance. Of the remaining 4,606 reviews, 252 of those 
identified violations of the Clery Act.
    From time to time, through those targeted program reviews, 
we have found significant instances of non-compliance. In these 
cases we have imposed fines. In 2000 we imposed a $15,000 fine 
on Mount St. Clare College. In April of 2005, a fine of 
$200,000 was imposed on Salem International University. Most 
recently, in October 2005 the Department fined Miami University 
of Ohio $27,500. We impose fines only when absolutely necessary 
to ensure continuing compliance with the requirements of the 
Clery Act and when evidence points to substantial 
misrepresentation.
    Presently we have pending 26 program reviews that became 
violations of Clery Act requirements. Additional fines are 
possible in these cases when final determinations are issued.
    Earlier I mentioned the cooperation of the FBI. I believe 
we need to expand that relationship to explore asking the 
Bureau to conduct audits of crime statistics at a sampling of 
schools across the country. The FBI already conducts audits of 
local law enforcement agencies and is skilled at identifying 
proper crime reporting. Working together, we could gain an even 
better understanding of compliance of the Clery Act, and 
reinforce the schools the importance of providing full and 
accurate information.
    The fundamental premise of the Clery Act is having timely 
and accurate information about the frequency of crimes on 
college campuses that will enable parents, students, and 
prospective students to make good decisions about where to 
enroll in college and where to live at school. Having complete, 
accurate, and timely information regarding campus security is 
critical as students make these important choices and pay 
attention to their surroundings and their decisions regarding 
personal safety.
    As a parent, I applaud the Clery family, Congress, and 
especially you, Mr. Chairman, for requiring post secondary 
schools to report this information that has proven invaluable 
to parents and students across the country.
    I also want to thank you for holding this hearing today on 
this critical issue, and look forward to answering any 
questions you might have for the Department.
    [The prepared statement of Mr. Baker appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Mr. Baker.
    We now turn to the United States Attorney for the Eastern 
District of Pennsylvania, Patrick Meehan. Mr. Meehan has a 
bachelor's degree from Bowdoin College, 1978; law degree from 
Temple; served as district attorney of Delaware County; he was 
an associate with the law firm of Dilworth Paxon; senior 
counsel and executive director of the Office of Arlen Specter, 
Philadelphia; also campaign manager for Arlen Specter, 1992, 
successful; campaign manager for Senator Santorum in 1994, 
successful.
    Mr. Meehan, you're way ahead of the game so far. The next 5 
minutes are yours.

  STATEMENT OF PATRICK MEEHAN, U.S. ATTORNEY FOR THE EASTERN 
 DISTRICT OF PENNSYLVANIA, DEPARTMENT OF JUSTICE, WASHINGTON, 
                              D.C.

    Mr. Meehan. Thank you, Senator.
    Mr. Chairman, Senator Santorum, thank you for the 
opportunity to testify about a matter that's of such concern to 
all of us. I know I've given substantial written comments, so 
let me take my limited opportunity to focus on an issue of 
significant importance to me.
    I want to emphasize that the Clery Act asks for more than 
just reporting crimes and statistics. It requires schools to 
take steps to help prevent crime, but it also, of greatest 
importance, it requires schools to inform students about 
programs and services to protect and heal those students who, 
unfortunately, are victimized by crime, particularly sexual 
assault on campuses, which we find are often acquaintance 
assaults.
    There have been recent reports in the press about problems 
of schools, particularly with regards to sexual assault. For 
example, at the University of Virginia, at Georgetown, at 
William and Mary, and Ohio State, five female students, one 
from each of these schools, reported to Dateline they were 
raped or forcibly assaulted sexually by fellow students.
    The female students reported the alleged assaults to school 
officials, who allegedly either discouraged the victims from 
moving forward with their cases, or failed to take effective 
actions against the perpetrator. Student-on-student date rape 
have recurring themes on campuses across the country.
    Congress, in fact, asked the National Institute of Justice 
to study school compliance with Federal laws regarding safety 
on campus, and particularly look at the issue of sexual assault 
on campus and what colleges and universities are doing about 
it.
    In December of 2005, the NIJ published its findings, and 
the results of that study are sobering. The report itself 
states that sexual assault is widely considered to be the most 
underreported crime in America. It concluded that just under 3 
percent of all college women become victims of rape during the 
9 months of a typical school year. That's 35 crimes for every 
1,000 women students on a campus.
    Despite these troubling statistics, what they found is less 
than 5 percent of completed and attempted rapes are brought to 
the attention of campus authorities or law enforcement. So it's 
the students that are not bringing it to the attention of the 
university.
    Therefore, the logical question becomes, what are schools 
doing and what can be done to encourage victims to come 
forward? What can be done to expand the victim's ability to 
proceed from being a victim to being a survivor, if one 
believes she's been sexually assaulted?
    Under the Clery Act schools must develop and distribute a 
statement of policy and procedures students should follow if a 
sex offense occurs. Only about four in ten offer sexual assault 
training, and often that training is not for the general 
student population.
    Schools must also inform students of their option to notify 
proper law enforcement authorities, including on-campus and 
local police, and the option to be assisted by campus 
authorities in notifying such authorities if a student so 
chooses. Fewer than half the schools studied inform students 
how to file criminal charges.
    There are good stories. Lafayette College, for example, 
University of Pennsylvania here in Philadelphia have created 
model programs that allow a victim to participate in 
decisionmaking, have some control over the pace of the process 
and are in charge of making decisions. Some practices include 
identifying the specific person or office to contact when 
sexual assault has occurred; the option to confidential or 
maybe even anonymous reporting. The policies fully inform 
students of each of the separate actions available to the 
victim.
    There are barriers, such as a failure of many people who 
are victims to recognize that that assault is a crime; there 
are concerns about confidentiality if they bring a report 
forward; and campus drug and alcohol policies, which may bring 
the victim into some kind of issue with the school itself, that 
works as a detriment to reporting.
    So working with our client agency, the Department of 
Education, my office wants to encourage noncompliant schools to 
create effective compliance programs consistent with these 
model NIJ programs. We hope by working with the many 
universities with the Department of Education continuing to 
marshal our resources and expertise that we will be able to 
increase schools' compliance efforts and decrease the criminal 
conduct on campus, particularly crimes involving sexual 
assault.
    Chairman Specter. Thank you very much, Mr. Meehan.
    We now go to the round of questioning, 5 minutes for 
Senator Santorum and me.
    I begin with you, Mr. Baker. Is it true that there have 
only been three fines imposed by the Department of Education 
since the Clery Act was passed in 1986?
    Mr. Baker. That's correct. I should point out that the way 
we determine fines is based on the severity of the violation.
    Chairman Specter. Three fines imposed.
    Mr. Baker. That's correct.
    Chairman Specter. Isn't that an incredibly small number, 
given the number of colleges and the amount of crime and the 
significant underreporting?
    Mr. Baker. Well, our goal is to try to get schools, 
obviously, to report correctly. And, of course, annually 
they're required to have an accounting firm or auditing firm 
look at all the information they provide us.
    Chairman Specter. Let's deal with the three fines imposed 
in 20 years. How can there conceivably, possibly be a 
justification for such lax enforcement?
    Mr. Baker. Well, we believe that--what we're trying to work 
with the schools to get the reporting requirements correct. So 
we're looking really for--
    Chairman Specter. You're trying to get the schools to 
comply. Congress passed a law to impose fines. Do you think 
we're kidding?
    Mr. Baker. Oh, no, not at all, sir.
    Chairman Specter. Well, our mandate has been ignored, 
absolutely ignored with that kind of an enforcement record. You 
don't have to go behind that to make an analysis and see that 
there simply is no enforcement.
    Mr. Meehan, the Department of Justice conducted a study in 
December 2005, entitled ``Sexual Assault on Campuses: What the 
Colleges and Universities are Doing About It'', and found that 
only a third of the institutions report their crime statistics 
in a way that is fully consistent with the Federal laws.
    What can be done about it, in your opinion, to get 
compliance? Should we shift this to the Department of Justice?
    I know you don't have enough cases to handle, so you have 
people sitting around. You're a very overburdened office, 
beyond any question.
    But should Congress look to the Department of Justice, 
which has experience in law enforcement, to do this job?
    Mr. Meehan. Well, Senator, I can say, to be sure, we look 
forward to working with our partners and--
    Chairman Specter. Who's your partner, Mr. Meehan?
    Mr. Meehan. The Department of Education is a client agency 
of mine.
    Chairman Specter. Would you claim them as a partner when 
they've only imposed three fines in 20 years?
    Mr. Meehan. We handle appellate issues.
    Senator, I believe, in response to your question, that we 
can do more, and I want to be a participant in doing more.
    The Department of Education has laid out a handbook that 
creates the reporting mechanisms that leave all doubt about 
ambiguity in the reporting requirements. This is available 
online. I know that this is only a 2005 report, but this should 
give any institution that wants to do it all of the information 
that they need to be compliant. When an institution is not 
compliant, armed with the facts, we would look forward to the 
opportunity to work with our partner.
    Chairman Specter. Mr. Meehan, it isn't sufficient to say 
the report should give them notice, it isn't sufficient to say 
we should work with a partner.
    In the context of noncompliance with fines, what would you 
think about imposing some stiffer penalties, some jail 
sentences for those who maliciously and willfully, on a 
repetitive basis, fail to report crimes?
    There are plenty of statutes which you enforce which impose 
those kinds of jail sanctions for failure to report. What is 
your evaluation of the deterrent effect of those kinds of 
statutes on the books? How much more effective are those 
penalties and simple fines in getting people to comply without 
investigations and rigorous enforcement?
    Mr. Meehan. Well, Senator, there's no doubt criminal 
sanction in any particular case gets the attention of somebody 
that may be on the receiving end of that sanction.
    I will tell you by analogy we would also have very 
tremendous success in acquiring compliance with regulations 
and, in fact, performance. I will use an example, the 
tremendous work that we do in the healthcare field. For 
instance, nursing homes that do not meet their obligations to 
provide the quality--
    Chairman Specter. Jail terms are possible?
    Mr. Meehan. There can be jail terms.
    Chairman Specter. And there's compliance with those 
statutes?
    Mr. Meehan. More significantly, Senator, we have the 
opportunity to dramatically influence the funding that comes to 
those institutions. When we get the attention of those people, 
because we can use the full gamut of Federal resources to 
interrupt the funding, they begin to pay attention. But most 
significantly, it gives us the leverage then to work with the 
Department of Health and Human Services in that context. And we 
get relationships with them where they begin to put in the 
compliance programs that address the issues that we're looking 
for. That's why I spent time on my testimony talking about some 
of these best practices that can be aspired to, would make a 
significant difference if institutions aspire to them. If we 
could help get them to do some aspiration by virtue of some of 
our prosecution, I know speaking for myself as a U.S. attorney, 
I would be anxious to do that.
    Chairman Specter. Thank you very much, Mr. Meehan. My time 
has expired so I yield now to my colleague, Senator Santorum.
    Senator Santorum. I just want to continue on that line of 
questioning.
    That handbook was issued in 2005?
    Mr. Baker. That's correct.
    Senator Santorum. What was the guidance for the colleges 
and universities prior to the handbook being issued?
    Mr. Baker. The Federal student handbook was the guidance. 
As U.S. Attorney Meehan pointed out, it's not nearly as 
encompassing as the guidance we have now which, if you read it 
provides examples, illustrates--you can tell about how the law 
should be implemented.
    So it's our goal to develop a guide which includes 
everything for folks from all the different communities we deal 
with, that we should have even greater compliance.
    Senator Santorum. That handbook was issued when in 2005?
    Mr. Baker. I believe it was June of 2005, and we held 
training with our folks in November of 2005.
    You should know that we also appear before various 
associations and various functions to provide instruction on 
how the program works, but in addition to that, Security On 
Campus is going to be holding its own training sessions using 
that handbook. We provided 2,000 of them to Security On Campus, 
and $25,000 to help them perform that training.
    Senator Santorum. You said in your statement that you 
impose fines only when absolutely necessary. It seems to be a 
rather--obviously a high standard since only three fines have 
been imposed and I guess I have to give credit--in recent times 
there's been a great acceleration.
    For the first 14 years there were no fines, so three in the 
last 6 years, at least there are some fines. So I maybe give 
credit for at least some fines being issued, but why such a 
standard as absolutely necessary for violations of this Act 
when the statute calls for fines when the Act is violated?
    Mr. Baker. Well, you brought up yourself, Senator, the fact 
that there was limited guidance, perhaps, before. The Federal 
student handbook was not as comprehensive as what we have. 
There were misunderstandings--
    Senator Santorum. Let me ask you this. So you had an Act 
that the universities didn't understand, that the Department 
didn't provide clear guidance, and for close to 20 years that 
situation was maintained until--then you decide to issue a 
handbook?
    Mr. Baker. I think the guidance was clear enough. I'd like 
to say that we've made it much clearer.
    Senator Santorum. If it was clear enough, then why wasn't 
there better enforcement? It's one or the other: It wasn't 
clear and it should have been enforced or it was clear and it 
wasn't enforced.
    Mr. Baker. I think there was adequate enforcement. We've 
had 252 violations that we identified through our program 
reviews. We've had another 17--
    Senator Santorum. Stop right there. 252 program violations 
over the 20 years of the Act, is that it?
    Mr. Baker. Well, since 1994.
    Senator Santorum. Since 1994. And of those, three have been 
fines. Any other actions taken other than fines?
    Mr. Baker. We've had--we worked with, obviously, each 
school to try to make sure that they take corrective action.
    We talked earlier about the University of Pennsylvania, 
they were concerned whether they were meeting all the tenets of 
the Clery Act. We worked with them, and as a result they do 
provide an example of how it should be done to others across 
the country.
    So it came as a positive result. We had no findings 
necessary in order to obtain that result. And that's what we 
generally find with schools we work with. They're willing to 
work with us and we help them identify or anything they've 
misidentified.
    We also have a toll-free hotline they can call to help 
interpret the Act. It existed before, it exists today even 
under the new guidelines so they can make sure they get the 
classification correct.
    Senator Santorum. Do you periodically go out and charge 
someone like the U.S. Attorney or the FBI to do an assessment 
as to whether the reporting is accurate? Is that something that 
you would do to determine whether there is compliance here?
    Mr. Meehan. Well, Senator, it's not something that we would 
customarily do, although I can tell you as the United States 
Attorney I was very interested in issues within my own 
jurisdiction, particularly since this is an Act that relates to 
it. And when I assumed the position of U.S. Attorney I began to 
look at that.
    I will tell you, we had very good cooperation. The 
Department of Education actually cooperated on investigations 
during my tenure, which raised my desire to work even more 
progressively with the Department of Education.
    Senator Santorum. My question is: Does either you or your 
client do, routinely, check or hire someone or routinely check 
to see whether the reporting matches what someone believes? I 
mean, we have the article in the paper here recently that shows 
that there was a great discrepancy. Was that article incorrect? 
If it was incorrect, why? If it wasn't incorrect, why wasn't 
that caught by someone else before the newspaper caught it?
    Mr. Baker. Well, every year every school's Federal student 
aid program is monitored. It's independently audited by the 
independent firm. In that audit, included are the Clery 
statistics. So we have had 400 and some violations uncovered as 
a result of those independent audits.
    In addition, we go out and do our own audits and we've 
done, as I said, some 4,623 program audits which have uncovered 
violations. We also have what we call campus security reviews 
where we think there may be a major issue and we will go in and 
do a very, very thorough investigation.
    I should mention too again, as I mentioned in my testimony, 
we would welcome a discussion with the Federal Bureau of 
Investigation regarding--
    Senator Santorum. I know I'm over time, I apologize, but 
you did audits, you have the schools that were listed in the 
paper. Do your audits support what was reported in the press or 
not? And if not, why not?
    Mr. Baker. Well, the activities that were reported in the 
press actually have not been--will not be included in the Clery 
report until at least 2005, which we won't receive until the 
beginning--we ask for those reports at the beginning of August, 
and they must appear publicly by October 1, that's a 
requirement. There's no way you can get past that date. And 
they'll be on our website, for example, they'll be on the 
schools' websites by October 1.
    So many of the actions that were talked about had not yet 
been reported simply because they weren't due to be reported. 
You do your reporting on a calendar year.
    Senator Santorum. Again, I apologize. Those schools that 
were cited as having discrepancies, they didn't have those 
problems a year before?
    Mr. Baker. Again, I'm not sure exactly what specifics 
you're talking about in the article, but I can tell you what 
we've done is that--basically, I think the activities you're 
talking about were for 2005. That will be included in the 
report they'll file this summer, and our folks will take a look 
at those reports, in light of what's been written, to see if 
they comply.
    Senator Santorum. I understand that. My question is, if 
they were not properly reported in 2005, based on the system 
they had in place, it would lead one to believe that this is 
not a new problem, that this is a problem that existed prior to 
2005. My question is: Were there problems prior to 2005 that 
you were aware of?
    Mr. Baker. No.
    Senator Santorum. Thank you.
    Chairman Specter. Thank you very much, Senator Santorum.
    Thank you, Mr. Baker.
    Thank you, Mr. Meehan.
    We now move to our next panel, the president of Temple 
University, president of West Chester, president of Drexel, 
vice president of University of Pennsylvania, vice president of 
Villanova, counsel to the president of LaSalle, director of 
Public Safety from St. Joseph's University, and Daniel Carter, 
senior vice president, Security On Campus.
    Senator Santorum. Mr. Chairman, while these distinguished 
people are coming to the dais I just want to apologize, I'm 
going to have to leave probably before all of them have 
testified to go to another appointment, but I want to thank 
you, again, for the opportunity to be here.
    Chairman Specter. Senator Santorum, we understand your 
schedule and we thank you for coming and we understand full 
well you have a collateral undertaking at the moment. Good 
luck.
    Thank you all for coming.
    I want to begin with Mr. Daniel Carter, senior vice 
president, Security On Campus; Master's degree from the 
University of Tennessee; has worked on the Clery Act 
modifications since 1992; member of the United States 
Department of Education, Negotiated Rulemaking.
    Thank you for joining us, Mr. Carter, we look forward to 
your testimony.

STATEMENT OF S. DANIEL CARTER, SENIOR VICE PRESIDENT, SECURITY 
         ON CAMPUS, INC., KING OF PRUSSIA, PENNSYLVANIA

    Mr. Carter. Senator, thank you for the opportunity to 
appear here today. I have to correct you, but I don't have a 
Master's degree. Thank you for the promotion, though.
    I am pleased to be here today on behalf of the students and 
campus crime victims to discuss the current state of compliance 
with and enforcement of the Federal Jeanne Clery Disclosure of 
Campus Security Policy and Campus Crime Statistics Act.
    There have been significant problems with the 
implementation of this Act. The U.S. Department of Justice 
found only about a third of all colleges report their crime 
statistics in a manner fully consistent with the actual 
requirements. The lack of clear guidance and the lack of strong 
enforcement have been two major factors contributing to these 
ongoing Clery Act violations.
    Despite these widespread compliance problems, however, 
there have been major improvements in recent years. More 
schools are embracing the Act, and the new Clery Act handbook 
consolidating more than a dozen sources of guidance has been 
released by the U.S. Department of Education, giving colleges a 
clear road map to compliance.
    Security On Campus, Inc., offers the following 
recommendations to help this critical process continue: A 
single campus security policy compliance office should be 
established within ED that consolidates all Clery Act and post 
secondary campus security-related functions; implementation and 
enforcement of the Clery Act should be conducted jointly by the 
Department of Education and the Department of Justice; 
institutions should be required to notify students and 
employees in their Clery Act annual security reports about how 
to file a complaint. Currently, unless a student locates SOC 
from our website, securityoncampus.org, or other materials, 
they are never informed of what to do if their school is 
violating the law.
    The Clery Act technical assistance authorized by Congress 
at DOJ for campus violence prevention grant recipients ought to 
be fully funded $200,000 per fiscal year, and expanded to cover 
all schools that have Clery obligations. Although SOC is here 
to serve as a free clearinghouse for Clery Act information, 
there have been no resources for widespread technical 
assistance at institutions preserved.
    There are also several key compliance problems we would 
like to bring to your attention. Many colleges continue to 
improperly report their sexual assault statistics. As noted by 
the DOJ, only about a third do so. Additionally, not all 
collect the data from every non-law-enforcement official on 
campus that they are required to.
    The public crime log does not always contain all the 
information that they are supposed to. Over the years we've 
seen many schools classify rapes as agency assists or 
miscellaneous incidents. And the date and time is often omitted 
from these reports.
    Timely warnings are not issued in reporting sexual assault 
cases. When there is an acquaintance sexual assault on campus, 
many, if not most, schools feel that a timely warning is not 
warranted, even if the accused student remains on campus. 
Research, however, has shown that acquaintance rapists are 
often just as predatory as their stranger rapist counterparts.
    Sexual assault victims don't receive proper notice of 
disciplinary action taken against their alleged assailants. A 
recent example comes from Temple University, where a young 
woman contacted us telling us that her alleged rapist had been 
allowed back on campus. She didn't know this until she saw him 
in one of her classes.
    The Clery Act requires them to tell her. They didn't, 
because they sent the notice to her old dorm address after she 
had withdrawn the prior semester. And when they did give it to 
her, based on our request, it didn't explain why. This is the 
kind of thing that revictimizes victims over and over again on 
our college campuses.
    Although not directly a Clery Act issue, there's one 
additional problem we'd like to draw your attention to. Private 
colleges and universities which employ sworn police often do 
not disclose their crime reporting information to the public 
like their counterparts at public colleges and universities do.
    I would like to conclude my comments on a positive note, 
one that gives me hope that our two decades of hard work in 
memory of Jeanne Clery are truly beginning to show dividends. 
In partnership with the DOJ's Office for Victims of Crime and 
the International Association of Campus Law Enforcement 
Administrators and other organizations, we are putting 
together, for the first time, a truly multidisciplinary Clery 
Act training program, and the first seminar will be here in 
Philadelphia later this year. And we would like for every 
school on the panel--this is a collaborative multidisciplinary 
team--to this training session when we host it later this year.
    Thank you for the opportunity to address these critical 
issues and for your decades of work to keep the students safe 
on campus.
    Senator Specter, you are truly one of my heroes, and it's 
an honor to be here and I'd be happy to answer any questions 
you might have.
    [The prepared statement of Mr. Carter appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Mr. Carter.
    We turn now to Dr. David Adamany, president of Temple 
University, an extraordinary academic record: Harvard, magna 
cum laude; Harvard Law; Master's from the University of 
Wisconsin; Ph.D. from the University of Wisconsin; previously 
had served as the Dean of Wesleyan; and president of Wayne 
State University; chief executive officer and administrator at 
a major gigantic educational institution in this city, takes up 
most of North Philadelphia now. Soon you'll be meeting Drexel 
at somewhere around 29th Street and Girard.
    Dr. Adamany, the floor is yours for 5 minutes.

   STATEMENT OF DAVID ADAMANY, PRESIDENT, TEMPLE UNIVERSITY, 
                   PHILADELPHIA, PENNSYLVANIA

    Mr. Adamany. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to appear.
    As you know, we're in one of the most restricted and 
difficult areas of Philadelphia, and we think we've made good 
progress. We believe the Clery Act is helpful to us. It tells 
us to gather statistics, it requires us to look at those 
statistics, to distribute them, which we do not only by 
circulating our report but by providing information on our 
website that's available to every parent and student. We 
believe that our efforts to comply with the Clery Act provide 
us with good internal information.
    I think improving the safety environment on campus--and 
that starts at the top--every single morning I turn on my 
computer and the very first thing I see is the police report 
from the previous day, which allows me to ask some questions if 
I notice patterns developing, or to inquire about a 
particularly sensitive piece, as those arise.
    We do offer extensive training programs for both parents 
and the students, and we think we reach a great many of them. 
Whenever there is a condition on the campus that we believe 
poses a danger for students, we circulate information to more 
than 60 locations, including the student newspaper, and we put 
it on the website so the campus community can be informed.
    Crime rates in our area are very low. We are helped by 
Pennsylvania law which authorized our police to take 
jurisdiction off the edges of the campus for several blocks. We 
patrol those areas and we not only report crime on the campus, 
but crime in the neighborhood where we have police 
jurisdiction.
    Furthermore, we are tied into the police network for the 
city of Philadelphia, and we report crimes that they report 
that are also in our neighborhood. So we have very effective 
reporting.
    We have an extensive, as I said, programs for students to 
alert them how to avoid crime and how to be assisted if they 
are victims of crime.
    We are proud of our record, realize we can always do more. 
Our efforts are extraordinary. We have a police department of 
110 sworn police officers, all of whom have been to the 
Academy, all of whom have arrest powers and are armed. We have 
an additional 74 security guards in our employ, and 314 
contract security guards in dormitories and other locations.
    Our area is scanned by 285 closed-circuit security cameras 
which give us constant oversight of the areas in my protection. 
We occasionally have a slip-up, one was mentioned a moment ago. 
Quite frankly, if the worst slip-up we ever have is that we 
send a notice of rape to a student at her stated address, and 
it does not catch up with her because she withdraws from school 
and we have to redeliver it the next semester because she then 
re-enrolls, we're not in bad shape. But we do make every 
effort.
    Rape victims and students who assert that they are the 
victims of rape are immediately offered transport to Temple 
University's health facilities, where we assist them and 
provide counseling and their complaint is properly processed.
    Let me, however, give this warning. In a rape assertion, as 
in any other case, the student is entitled to due process under 
the Constitution. Because we are a public institution, until 
our judicial body has acted, no student can be found to have 
committed a rape. We move very rigorously on these cases. We do 
balance the Constitutional rights of the accused with the 
urgency and the violation of the victim.
    Thank you.
    [The prepared statement of Dr. Adamany appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Dr. Adamany.
    Our next witness is Dr. Madeleine Wing Adler, president of 
West Chester University. Another distinguished academic record. 
Bachelor's from Northwestern; Master's from the University of 
Wisconsin; Ph.D. from the University of Wisconsin; very 
extensive activities in Chester County; and named Chester 
County's 1998 Citizen of the Year.
    Thank you for coming in today, Dr. Adler. The floor is 
yours.

  STATEMENT OF MADELEINE WING ADLER, PRESIDENT, WEST CHESTER 
             UNIVERSITY, WEST CHESTER, PENNSYLVANIA

    Ms. Adler. Thank you, Mr. Chairman, and thank you for your 
interest in enhancing the success of the Clery Act and Campus 
Crime Reporting Act.
    We at West Chester University really welcome the 
opportunity to offer our perspective on how we might work 
together to improve reporting and enforcement of the Clery Act.
    In crime reporting, the fundamental current challenge is 
that colleges and universities are not using a consistent 
format to present their data. As a result, accurate comparisons 
among the institutions are difficult to obtain and crime 
reports can often be confusing to the reader, be it parent or 
student or anyone in the community.
    This situation is especially true in cases of State law 
such as Commonwealth of Pennsylvania S73 which require 
classifications, definitions and formats that are different 
from those in the Clery Act.
    We offer five recommendations that we feel can address this 
situation and further advance the value of campus crime 
reporting. Our first recommendation is to establish a single 
format for reporting crime statistics. This format, perhaps 
similar to the one used on the Department of Education website, 
would be used by all colleges and universities in their 
published annual crime reports. The standard format would print 
out easy and accurate comparisons among institutions.
    Second, we urge the adding of larceny, generally the most 
common crime on college campuses, to the reportable crimes 
under the Clery Act.
    Third, it is important to ensure that the Department of 
Education investigators are thoroughly trained in the 
intricacies of campus security, so that their advice and 
decisions are consistent and appropriate to the setting 
situations. We have been informed by a consultant that this is 
not always the case.
    Fourth, we suggest development of a mechanism for ongoing 
Department of Education assistance and mutual exchange of 
ideas. You heard about the handbook for campus crime reporting, 
and it is a valuable document in clarifying numerous points, 
but no handbook can anticipate every possible situation. We 
think it would be useful to have a means of sharing Department 
of Education responses to the points of confusion or new 
questions otherwise to them. These responses could, perhaps, be 
made available to all institutions through an annual newsletter 
or on their website.
    Finally, we suggest periodic required meetings between 
campus police representatives and Department of Education 
officials to review legislation and compliance issues, update 
the handbook on campus crime reporting, and provide training.
    We talked in the earlier panel about the training that we 
do, and we do it on campus, and I think it would be more 
effective if we could work with the Department of Education and 
have them more intimately involved in our campuses in these 
training acts.
    So I thank you again for this opportunity to help ensure 
that campus crime reporting is as useful as possible for 
everyone concerned, and I welcome questions at the end of this 
presentation.
    [The prepared statement of Dr. Adler appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Dr. Adler.
    Our next witness is Dr. Constantine Papadakis, president of 
Drexel University from 1995 to the present. There has been 
enormous expansion of Drexel during Dr. Papadakis' tenure, 
taking over the hospital, a great community service, now has a 
law school and is expanding tremendously. He has a background 
in education and civil engineering, a Master of Science from 
the University of Cincinnati; Ph.D. from the University of 
Michigan.
    He has a distinguished academic record administratively. He 
was Dean of the University of Cincinnati College of Engineering 
for a decade, and he was awarded the Knight Cavalier D'Official 
of the Order of Merit of the Italian Republic. Not too bad for 
somebody who comes from Greece.
    [Laughter.]
    Chairman Specter. Dr. Papadakis, thank you for coming in 
today, and we look forward to your testimony.

     STATEMENT OF CONSTANTINE PAPADAKIS, PRESIDENT, DREXEL 
             UNIVERSITY, PHILADELPHIA, PENNSYLVANIA

    Mr. Papadakis. Thank you, Mr. Chairman.
    I would like to concentrate my comments today on a recent 
news media article of how colleges and universities in 
Philadelphia complied with the Clery Act. I know my colleagues 
at all of greater Philadelphia's colleges and universities join 
me in saying the safety of our students is of paramount 
importance to all of us. We want students who choose to enroll 
in our universities based on informed decisions. My own 
daughter, Maria, attends Drexel University, and lives on 
campus, and I do care about her safety.
    At Drexel we freely share our campus crimes statistics. In 
addition to publishing this data in our student newspaper, The 
Triangle, and on our website, we update the website every 24 
hours with Clery data. We also publish an online map that 
indicates the boundaries of reportable Clery infractions.
    One of the challenges, though, of complying with the Clery 
Act is its lack of specificity in defining the reporting 
boundaries. It was only in 2005 that the handbook on campus 
crime reporting was published. This handbook goes a long way 
with its 200 pages to clarify many of the questions regarding 
the reporting of criminal incidents. However, the reporting 
boundaries ``within the same regionally contiguous geographic 
area'' as stated in the Clery Act are not well defined.
    In addition to the Clery Act, our Commonwealth's colleges 
and universities are required to comply with the Pennsylvania 
College and University Security Information Act. The 
Pennsylvania Act and the Clery Act have different reporting 
requirements, adding to the complexity and the resources needed 
to collect and report crime statistics.
    For example, under the Pennsylvania Act, all crimes 
involving the students or university are reported in the 
university's jurisdiction, which, in our case, we interpret to 
be the greater Philadelphia area. Any crime involving a Drexel 
student is reported to the Pennsylvania Act if the crime occurs 
in greater Philadelphia.
    Those differences in reporting requirements help to explain 
why, for example, in 2004 Drexel University reported four 
robberies under the Clery Act, and 14 robberies under the 
Pennsylvania Act, in the same amount of time. Additionally, 
theft and vandalisms are not reportable offenses under the 
Clery Act, as you heard from Dr. Adler. However, they are 
reportable offenses under the Pennsylvania Act.
    As a result of the multiplicity of those reporting 
requirements, Drexel has had to hire additional staff members 
to track all crime statistics, and we have instituted a three-
person panel to determine how each incident needs to be 
classified under the guidance of each of the Acts.
    The disparities in reporting crime statistics to the Clery 
and the Pennsylvania Act may have led to the media 
misrepresentation of information regarding Philadelphia 
universities reporting, including Drexel. Specifically, I'm 
referring to the January 15, 2006, Philadelphia Inquirer 
article.
    The article fails to address the complexity that the 
nation's colleges and universities face in complying with the 
Clery Act. In its January 17, 2006 editorial, ``Don't Fudge the 
Numbers,'' the Inquirer stated that ``Drexel University in its 
2004 Clery report noted only two robberies while next-door 
neighbor, University of Pennsylvania, listed 65,'' implying 
that this is unexplainable since Penn has 23,000 students and 
Drexel has 18,000 students, as listed in a table published by 
the Inquirer within the January 15 article.
    However, the Inquirer failed to note that the size of 
Drexel's campus in West Philadelphia is 40 acres, compared to 
Penn's 270 acres. Because of communication problems and other 
complications, the Inquirer also failed to note that of our 
18,000 students, Drexel has only 8,000 students on campus in 
west Philadelphia.
    The Inquirer article also tries to cast doubt regarding the 
boundaries. The Inquirer found eight robberies of Penn students 
within two blocks of the Drexel campus. None turned up in the 
Clery filing, said the Inquirer, ``about Drexel.'' Of course 
they didn't, because they happened two blocks away from our 
campus boundary, which is our multiple reporting boundary for 
the Clery Act. However, Drexel properly reported those 
incidents in our Pennsylvania Act report.
    May I continue?
    Chairman Specter. You may continue, Dr. Papadakis.
    Mr. Papadakis. The Inquirer article further states that, 
``a Drexel student was accosted by an assailant at 30th and 
Market Streets, just outside the school's mandatory reporting 
area of the Clery Act. He was chased a block into the Clery 
zone, beaten and robbed for $5.00,'' implying that Drexel 
wrongly failed to include this incident in its Clery report.
    How far do we have to go in reporting each incident to make 
such a differentiation between where the crime started and 
where the crime ended if it crosses the Clery boundaries, 
especially if police crime reports are not readily available to 
a nonlaw enforcement agency like Drexel University? By the way, 
this incident was also included in our Pennsylvania Act report.
    We want to make certain that there is a clear understanding 
of the difference between the Clery Act and Pennsylvania Act. 
We also want to make clear the fact that the Inquirer, in its 
article and in its editorial, confused the two Acts and the 
reporting requirements. The universities have not reported yet, 
as Senator Santorum asked, the 2005 statistics of the Clery 
Act, which will be reported this coming October.
    Thank you.
    [The prepared statement of Dr. Papadakis appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Dr. Papadakis.
    Our next witness is Maureen Rush, vice president of the 
division of public safety of the University of Pennsylvania; 
Master's degree from the University of Pennsylvania School of 
Arts and Sciences; has been chief of the University of 
Pennsylvania Police Department, 1996 to 2000; was a police 
officer in the city of Philadelphia from 1976 to 1994. One of 
the first 100 women police officers hired by the City to work 
street patrol.
    You came to the department just a little late, Ms. Rush, to 
be a district attorney detective in my office. You have quite a 
record. We look forward to your testimony.

   STATEMENT OF MAUREEN S. RUSH, VICE PRESIDENT, DIVISION OF 
   PUBLIC SAFETY, UNIVERSITY OF PENNSYLVANIA, PHILADELPHIA, 
                          PENNSYLVANIA

    Ms. Rush. Thank you. Good afternoon, Senator Specter. I was 
also one of your neighbors, but we won't go there.
    On behalf of President Gutmann, she's unable to be here 
today due to some travel, but she sends her regards. It's my 
pleasure, on behalf of President Gutmann and the University of 
Pennsylvania, to speak to you about our standards of crime 
reporting as they relate to the Clery Act, and to share some of 
our lessons learned for enhanced Clery compliance.
    At Penn we believe that safety and security is a shared 
responsibility, and that the best protection against crime is 
an aware and informed and alert community, along with a strong 
law enforcement presence. As such, we are constantly improving 
our systems to provide students, faculty and staff with the 
information they need to make wise decisions for their personal 
safety.
    Safety and security are the highest priorities of this 
administration at the university, as evidenced by the ample 
resources that President Gutmann has allocated to my division.
    I'd like to give you a brief overview of our operations. We 
have 175 members within the Division of Public Safety. We 
deliver a comprehensive public safety program that includes 
116-member internationally accredited sworn police department 
that has full powers of arrest and carries weapons. We have a 
best-in-class security technology network of 76 Pantec zoom 
cameras, CCPB cameras, and more than 200 moonlight emergency 
phones on and off campus. We also contract a security force 
through Allied Barton Security of over 410 security officers, 
who supplement the police department on patrol. They also staff 
our academic and residential buildings.
    We also offer an array of educational safety presentations 
and victim support services, as well as having a fully staffed, 
24-hour-a-day emergency communication center that we call our 
Intercom Center.
    It is for these efforts, and particularly our community 
policing and security technology initiatives, that Penn was 
awarded the Jeanne Clery Campus Safety Award in 2003 from 
Security On Campus. We thank you for that.
    It is also the solid infrastructure of technology and 
resources that helps us comply with and at times exceed the 
Clery requirements.
    Communications is the key to our success. Communications 
with our partners in the Philadelphia Police Department, our 
students, faculty and staff, and with the broader West 
Philadelphia community. We believe that the more we know about 
what is happening on campus and in the community, the more 
effective we will be in pooling our resources and making the 
community safer, through giving the timely warnings when a 
crime occurs.
    That's why in addition to collecting crimes reported 
through our emergency 911 system at Penn, we also collect 
security information from our security departments at both HUP 
and Presbyterian Hospitals, as well as entering into a 
memorandum of understanding with the Philadelphia Police 
Department, and we actually have their 911 CAD dispatch center 
comes into our center--as does Temple University--so we know 
what is going on around the campus area.
    To facilitate reporting and establish communication 
networks that aid us is relaying timely notification, we have 
assigned our Penn police officers as liaisons to all the 
college houses and resource centers on campus, as well as 
several citizen organizations in the community such as Town 
Watch and other community groups.
    We go above and beyond Clery's requirements by making 
available a crime log capturing all reported crimes within our 
Penn patrol zone which, Senator, is 38th to 43rd Street, Market 
to Baltimore. It includes Presbyterian Hospital as well, and 
all in all it's a two and a half square mile radius of patrol.
    We also issue a daily e-mail to senior administrators 
informing them of any incidents that may have occurred in the 
last 24 hours. When there's an immediate emergency we notify 
the community via our campus print and electronic media, our 
public safety website and an emergency list serve that goes 
through e-mail.
    In recent years we've enlisted the help of a core group of 
student leaders who assist us in disseminating our messages and 
establishing a campus safety and security compliance committee 
with members from the Division of Public Safety, Office of 
Institutional Compliance, and the Office of General Counsel. 
This Committee helps to distribute and ensure the accuracy of 
all reporting under the Clery Act.
    Some suggestions from Penn, we're fortunate that we have 
the resources that we do, the relationship that we've built 
with the Philadelphia Police Department. We think it would 
benefit all universities to establish similar relationships and 
systems, especially with regards to accessing data through 
municipal police departments.
    But it would also be helpful if the government enacted 
legislation mandating municipal police departments to report 
relevant crime statistics to universities. As the president of 
Drexel University just alluded to, sometimes that doesn't 
always happen.
    For universities residing in states such as Pennsylvania 
with the two different requirements, state and Federal, it is 
confusing, as was noted by the president of West Chester.
    Adequate software could also ease the burden, and at Penn 
we're lucky to have a record management system that we finally 
were able to enact, that's comprised of a dual reporting 
system. But all to often, vendors will approach universities 
with products that they say will comply with the Clery Act 
when, in fact, they cannot. To rectify this, a standard RFP 
should be made available to all universities to supply vendors 
that can really, absolutely build a contract and software that 
will sufficiently comply with the Clery Act.
    The creation of discretionary funds to fund these ventures 
would also be helpful, in that all universities don't have 
those resources.
    Also, better guidance from the Department of Education 
regarding interpretational issues such as definition of 
contiguous property, which is a constant concern for all of us 
in trying to figure out where we should report and not report.
    For universities to take advantage, especially of the new 
collaborative multidisciplinary Clery Act training that is now 
being sponsored by the Department of Justice's Office of 
Victims of Crime, OVC, and the Clerys. The first seminar will 
be held here in Philadelphia in October, and the University of 
Pennsylvania looks very forward to joining you on that.
    In closing, one of the goals with this legislation is to 
provide an accurate representation of campus safety to all who 
try to use universities. In order to better facilitate this, 
you might consider qualifying statistics by adding such things 
as the size of the area included in the reporting of the 
population of the community where the school resides.
    There is no doubt that as universities have been held 
increasingly accountable--
    Chairman Specter. Ms. Rush, how much longer would you like?
    Ms. Rush. This is the last line, sir.
    There is no doubt that as universities have been held 
increasingly accountable by the various iterations of the Clery 
Act, that the crime prevention programs have benefited from 
this.
    I thank you very much for the opportunity to present this 
information today. Thank you for your interest.
    [The prepared statement of Ms. Rush appears as a submission 
for the record.]
    Chairman Specter. Thank you very much, Ms. Rush.
    We turn now to Reverend John Stack, vice president for 
Student Life at Villanova University; a graduate of Villanova; 
and has been Dean of Students at Villanova.
    Thank you very much for coming in today, Reverend Stack, 
and we look forward to your testimony.

STATEMENT OF REVEREND JOHN STACK, VICE PRESIDENT, STUDENT LIFE, 
         VILLANOVA UNIVERSITY, VILLANOVA, PENNSYLVANIA

    Reverend Stack. Thank you, Senator. I appreciate the 
opportunity to speak on behalf of Villanova about the critical 
importance of campus safety.
    Villanova's interest in campus safety is not limited to the 
physical safety of members of our community, although physical 
safety is paramount. As a Catholic and Augustinian institution 
of higher learning, Villanova seeks to reflect the spirit of 
St. Augustine by the cultivation of knowledge, by respect for 
individual differences, and by adherence to the principle of 
mutual love and respect to animate every aspect of university 
life. We're always required to say that little bit about St. 
Augustine whenever testifying.
    [Laughter.]
    Chairman Specter. Sounds good.
    Reverend Stack. In honoring our mission, Villanova hopes to 
render the spirit of the Clery Act. Villanova annually 
discloses information about campus crime and emergency 
reporting procedures, our policy for responding to these 
reports, and the policies designed by the university to 
encourage the proper reporting of crimes to the appropriate 
authorities. We include information about the Public Safety 
Office on campus, such as the degree of this enforcement 
authority and its relationship with local police. We also 
include information about access to and security for the 
facilities on campus, including residence halls, as well as our 
procedures for monitoring instances of criminal activity at 
recognized off-campus student organizations and residences. We 
also advise community members of our policy for enforcing 
Federal and state drug and alcohol laws.
    Villanova's information dissemination is closely tied with 
Clery Act's primary goal of providing students and their 
families with accurate campus crime information. Villanova 
annually compiles statistics of reporting incidences and makes 
prompt reports of crimes to the university community when there 
remains an immediate and substantial threat to the safety of 
students or staff.
    All crimes reported to the university's Public Safety 
Department are also compiled in a log made available on a daily 
basis to the public. We also provide a description of the many 
crime prevention programs Villanova makes available to students 
and staff, and the frequency of our programs.
    Although the Clery Act has been effective to some degree in 
informing students and families about safety, we choose to do 
more. We have found that many surveys support our experience 
that students are more and especially responsive to particular 
safety precautions that tell a story or bring the realities of 
a failure to use caution home in specific ways.
    In a random sampling of students at three different post 
secondary schools, the number of students reported having read 
flyers or articles on campus relating to crime and safety 
equaled 52 percent. And 40 percent of female respondents 
reportedly made changes to their personal safety plans as a 
result of this information.
    Student response to these more informal and timely 
approaches to educating members of the campus community were 
higher than the reported response in the annual crime 
disclosure information. Students unmoved by a page of 
statistics with dry, official campus policies might be more 
motivated to read crime safety tips or attend a self-defense 
workshop. If the information is provided in a way that 
encourages students or relates to their daily lives, they may 
well see the advantage and change their own habits.
    For these reasons, Villanova uses many other means to 
communicate safety issues to our community. Just by way of a 
few examples, some of the measures we employ include safety 
tips for academic break period safety; car safety; sign-up 
witness; crime reporting capability; information sheets on 
stalking on campus; use of a sexual assault interventionist; 
crime awareness games with prizes; published interviews with 
public safety professionals; self-defense training on campus; 
and crime awareness sessions with coaches and student athletes.
    At Villanova, the safety and welfare of every student is of 
paramount importance. The organization Security On Campus 
recently honored Villanova with an award for our 
accomplishments in the area of campus safety. While it respects 
the efforts of the Clery family, Security On Campus and other 
organizations have encouraged college officials nationwide to 
be vigilant regarding the protection and safety of students.
    That being said, there is a challenge that awaits all 
college administrators, a challenge that lies much deeper than 
reporting crime statistics. Whether a college or university is 
located in Center City Philadelphia, the Main Line or the more 
rural part of the Commonwealth, each campus community is 
challenged to convince traditional college-aged students that 
they must take responsibility for at least their own personal 
safety, and ideally for the safety of their fellow students.
    Most traditional college-aged students do not believe that 
they themselves will be a victim of crime, let alone a violent 
crime. For example, their willingness to allow a ``innocent 
looking stranger'' into a residence hall without asking 
questions or asking for identification invites a crime to 
occur.
    The Clerys are to be commended for their dedicated efforts 
that have brought campus safety to the forefront for parents 
and college administrators. However, crime reporting is not 
enough. There's a duty of each institution to make concerted 
efforts to educate its community members about the importance 
of personal safety.
    It's my opinion that no Federal or state legislation can be 
enacted that will protect students from their own mistakes or 
the decisions of others to harm another person. The fact that 
Villanova or any other school is in a safe neighborhood and 
reports low crime statistics is no guarantee that a serious 
crime will not occur. By its nature, criminal activity is often 
random.
    Through the efforts of the Clery family, higher educational 
institutions have become more aware of the role of helping 
students minimize the chance of poor decisionmaking that might 
place themselves in danger.
    Villanova strives to maintain and improve its record of 
campus safety in furtherance of its Augustinian mission to live 
as a community of friends learning together. Students and 
institutions working together can make the difference in 
keeping a campus safe.
    Thank you for the opportunity today.
    [The prepared statement of Rev. Stack appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Reverend Stack.
    Our next witness is Mr. Edward Turzanski, counsel to the 
president and assistant vice president for Government and 
Community Relations at LaSalle. He's a senior fellow for the 
Center for Terrorism and Counterterrorism; member of the Coast 
Guard, Department of Homeland Security; Bachelor's degree from 
LaSalle; Master's from Villanova; national security seminar, 
U.S. War College.
    Thank you very much for coming in today, Mr. Turzanski, and 
we look forward to your testimony.

    STATEMENT OF EDWARD A. TURZANSKI, ESQ., COUNSEL TO THE 
 PRESIDENT OF LASALLE UNIVERSITY, ASSISTANT VICE PRESIDENT FOR 
 GOVERNMENT AND COMMUNITY RELATIONS, PHILADELPHIA, PENNSYLVANIA

    Mr. Turzanski. Thank you, Mr. Chairman.
    In the interest of putting our time to the best productive 
use, I've entered into the record a statement. I'd like to 
emphasize one portion of that which may not have been treated 
in the same measure by my colleagues.
    First of all, by means of our educational mission, our 
religious beliefs, our moral considerations, LaSalle has always 
placed a high premium on the safety and security of its 
students and employees. For that reason, we have long had pure 
education programs for drug and alcohol issues. In fact, we're 
among a group of about 20 percent of all colleges and 
universities recognized by the Department of Justice as having 
these kinds of programs.
    We have long had a very good relationship, working 
relationship with the 14th and 35th Philadelphia Police 
Departments, very high number of former police officers are in 
our security force, as well as soon-to-be Philadelphia police 
officers. So we have a good operational relationship with 
Philadelphia police.
    We've had very effective sexual awareness, victim 
awareness, drug and alcohol education and awareness programs. 
And despite this, we welcome the arrival of the Clery Act, 
because, as has been said by my colleagues and by Mr. Meehan in 
the panel before us, it gives us an opportunity to use common 
language for the purposes of sharing best practices.
    If there's a lesson to be drawn from LaSalle's experience, 
it speaks to that article that was in the Philadelphia Inquirer 
where we were very briefly mentioned, but also by way of 
criticism, and it had to do with an incident that was--an 
alleged incident that was brought to our attention in the 
summer of 2004 concerning alleged sexual assault. That, in 
turn, brought another individual forward who had alleged a 
sexual assault from the year 2003.
    Immediately we cooperated with the Philadelphia police when 
we learned of these allegations. They launched their 
investigations and we launched our own internal investigation.
    Faculty, university legal counsel, a nationally known Clery 
compliance consultant were all brought together for the 
purposes of looking at what we were doing to see how well we 
had complied with Clery, specifically to find out what happened 
in these two particular incidents, and then to see what lessons 
had to be drawn so that we could make our compliance with Clery 
better, but also serve the very specific purpose, not just 
living with the letter of Clery, but specifically with its 
spirit.
    What we found is that we had some very sound procedures in 
place. In some cases we were even stronger than Clery called 
for. But we also found room for improvement. I think that's the 
thrust of what we would like to get across. Despite the fact 
that we had very good policies and procedures in place for the 
reporting of crimes, and that we had very effective measures 
for helping students know what resources were available and we 
were disseminating information on a realtime and a timely 
basis, we had an opportunity to look into our procedures and 
find that we could further enhance dissemination of timely 
warnings.
    We took measures to enhance specialized training on crime 
classification and report writing so that our student life and 
our security people were talking about the same things. We also 
reached out to our counselors and to our religious clergy who, 
under Clery, were not required to report allegations of sexual 
assault, and said to them, without violating confidentiality, 
please let us know, at least let us know that something 
happened so that we can report this.
    We also enhanced programs that we had had in the past in 
terms of letting students know what was available for victim 
counseling, as well as enhancing our security perimeter. Our 
security perimeter, through use of a higher bike patrol, goes 
well beyond what is required in Clery.
    And again, Senator, what we tried to do was to look at what 
we had in place, and recognizing that we could build on that, 
to live within the spirit of what Clery called for. We have 
very high confidence that we did that. And it's our belief that 
hearings like this work with watchdog groups like Campus Crime, 
Incorporated. And through collaborative efforts that are 
warehoused through the Department of Education, we have an 
opportunity to inform what is the best practice.
    Clery is better today than it was at the time of its 
introduction. So is our compliance. It's our belief that 5 
years from now it will be better than it is today, 10 years 
from now... We have to keep pace with that, and it's our 
interest to do so.
    Thank you, sir.
    [The prepared statement of Mr. Turzanski appears as a 
submission for the record.]
    Chairman Specter. Thank you. Thank you very much, Mr. 
Turzanski.
    Our final witness is Mr. Bill Mattioli, Director of Public 
Safety of St. Joseph's University. Like Ms. Rush, Mr. Mattioli 
has extensive experience on the Philadelphia Police Department, 
from 1970 to 1996; and as a public safety officer at St. 
Joseph's University.
    Thank you for coming in, Mr. Mattioli, and we look forward 
to your testimony.

  STATEMENT OF BILL MATTIOLI, DIRECTOR OF PUBLIC SAFETY, ST. 
        JOSEPH'S UNIVERSITY, PHILADELPHIA, PENNSYLVANIA

    Mr. Mattioli. Thank you, Senator, for the opportunity to 
address this hearing.
    I'm here on behalf of Father Timothy Lannon, president of 
St. Joseph's, who apologizes, but he had a previous engagement.
    The safety and well-being of our students is of the utmost 
importance, and I'm happy for the opportunity to discuss our 
compliance with the Jeanne Clery Disclosure of Campus Security 
Policy and Campus Crimes Statistics Act, the Clery Act.
    I want to assure all the members of the panel, as well as 
our students and parents, that St. Joseph's University is 
committed to and takes very seriously its responsibility to 
comply with the Clery Act. Further, we at St. Joseph's strongly 
believe that providing our campus community and prospective 
students with as much information as possible will empower them 
to make better decisions where matters of safety are concerned. 
I'd like to take a minute to address these issues with you.
    The Clery Act requires the publication of an annual report 
disclosing campus security policies in 3 years or other 
selected crime statistics. St. Joseph's collects this data from 
all incidents reported to the Office of Public Safety and 
Security, the Office of Residence Life, other campus security 
authorities and local police departments.
    We publish this report and post it on a publicly accessible 
website, notify all students and employees individually by 
electronic mail of the availability of the report on the 
website or its location in print form. We submit our crime 
statistics to the Department of Education through its web-based 
data collection system and notify all prospective students and 
employees of the content and the availability of the report.
    The Act also requires schools to make timely warnings to 
the campus community when there are crimes that pose an ongoing 
threat to students and employees. When such crimes occur, St. 
Joseph's security personnel distribute printed flyers 
containing as much detail as possible to all on-campus 
residents. These warnings are also posted on a security website 
and e-mailed to all employees.
    Finally, they are posted on the campus internet, which 
students must use to access their university e-mail accounts, 
ensuring that off-campus residents and commuter students also 
receive notification.
    The Clery Act requires each institution with a police or 
security department to maintain a public crime log. At St. 
Joseph's, not only is this log maintained and publicly 
available, it is shared with the student newspaper each week so 
that the items may be published there.
    In order to ensure that the information in the log and in 
our crime statistics reporting is as complete as possible, we 
work closely with the two police departments that have 
jurisdiction over our campus. The Philadelphia Police 
Department shares its crime log with us each day. Lower Merion 
Township does so on a weekly basis. This allows incidents that 
happen off campus to be brought to our attention.
    In compiling crime data, St. Joseph's policy is to take a 
broad view of how we define our campus so that we're reporting 
more data, not less. This allows our students to have as much 
information as possible to create greater student awareness.
    Also, in addition to the open and public log mandated by 
Clery, we also maintain an open and public log of off-campus 
offenses that come to our attention, for the same reason.
    Crime is a serious issue for every campus in this country. 
Last fall, St. Joseph's increased its annual security budget by 
$145,000 to hire off-duty Philadelphia police officers for 
extra patrol seven nights a week as opposed to the two that we 
did before.
    We also budgeted an additional $140,000 annually to hire 
additional university officers for residence hall security. 
This fall we're going to spend an additional $350,000 to 
enhance campus lighting and our emergency phone system and 
increase the number of shuttle buses.
    We continue to seek new ways to make St. Joseph's even 
safer than it is now.
    Thank you again for the opportunity to address you. And by 
sharing this information with each other and discussing how we 
can improve, we can all work together toward making our 
campuses more secure.
    [The prepared statement of Mr. Mattioli appears as a 
submission for the record.]
    Chairman Specter. Thank you very much, Mr. Mattioli.
    I'll begin with you, Dr. Adler, to start. The Philadelphia 
Inquirer led with comments about West Chester University. I'm 
sure you're familiar with them. They had commented that a 
single sexual assault in 2003 and 2004 was changed into 14, 
including 10 in residence halls, and burglaries in those years 
moved from 2 to 45, once publicity was focused.
    Do you think you were unfairly treated by the Inquirer?
    Ms. Adler. No. First of all, the university takes full 
responsibility for the errors that were made. The university 
reports, as I indicated in my remarks, statistics, both in 
accordance with the Pennsylvania Act and the Federal Clery Act, 
and those definitions are different.
    The university used the wrong definitions for those crimes. 
And when those errors surfaced, the university immediately 
reviewed everything we had reported for the last 5 years. We 
brought in a consultant, Clery consultant, to help us go 
through that data to make sure that we were doing it correctly, 
and we have corrected all those in a very, very timely fashion.
    And now we're undergoing more training for all of our folks 
that are charged with making those reports. And as I also said 
in my remarks, I think it would be helpful to all of us to work 
with the Department of Education to have better training for 
all of our people to make sure we're doing it.
    We regretted that. That was horrifying to me, and we 
immediately took action to address that.
    Chairman Specter. Well, you were very direct about it, 
commendably so. It was a horrifying experience, a pretty 
substantial wake-up call for your university.
    Ms. Adler. Absolutely.
    Chairman Specter. Do you think you benefited from that 
wake-up call in your corrective measures?
    Ms. Adler. No doubt about it. I think we're better than 
we've ever been. We're committed. I've taken great pride in our 
Public Safety Department, and particularly on the side--as many 
have mentioned, on this panel--of our training, work in the 
residence halls, our work at new student orientation, our work 
in our weeks of welcome, our work with the community. Our 
Public Safety Department has been a model for the community. We 
have-- well, the Crisis Response Center for Chester County is 
located on our campus. Our police officers train, the bike 
brigades and other police departments and other challenges and 
communities. So I know that our Public Safety Department works 
very, very seriously and was as horrified as I was. We jumped 
immediately to address that. This is not the way we do 
business.
    Chairman Specter. Dr. Papadakis, your testimony was a very 
comprehensive analysis of the Philadelphia Inquirer article.
    Do you think Drexel was fairly treated by the article?
    Mr. Papadakis. Was not fairly treated, Mr. Chairman.
    Chairman Specter. Did the impact of the article motivate 
Drexel to change any of its practices?
    Mr. Papadakis. No, Mr. Chairman, we've not.
    Actually, if you recognized that the Pennsylvania Act is 
much more stringent than the Clery Act. If you also appreciate 
the fact that for the Clery Act of 2004, Drexel reported 66 
crime incidents, but for the Pennsylvania Act, Drexel reported 
377. We're not afraid to report what happens on our campus or 
our other campus. We actually had volunteered to consider 
greater Philadelphia as the place where any of our students--if 
any of our students has a crime incident, we will report it to 
the Pennsylvania report.
    The fact is that for those 377 incidents reported, theft 
accounted for 158. And the Clery Act does not provide for theft 
reports. 100 in the Pennsylvania report were for vandalism, and 
vandalism is not required to be reported for the Clery Act.
    So when the Philadelphia Inquirer says ``the best strategy 
for schools worrying about the competitive world of student 
improvement is not to hide crime,'' we think that this implies 
the university's conceal crimes in order to not lose potential 
students. That is absolutely untrue for any of us. All of us 
report about four times or five times more crime incident 
statistics to Pennsylvania than to the Clery Act.
    Chairman Specter. Your testimony dealt with, to some 
significant extent, the question of boundaries. Have you 
modified the reporting as to the boundaries issue?
    Mr. Papadakis. No. We take the boundaries of the university 
as the boundaries of reporting. The issue here is that if you 
go away from those boundaries, where do you stop. Is it two 
blocks away? Is it four blocks away? Is it the whole Powelton 
Village? Then we take away the responsibility from the police 
department.
    See, when we--you heard all of us say how many cameras do 
we have. Forty acres of Drexel are covered by 225 cameras. 
There are 95 emergency phone boxes on campus. The more we do, 
the less the police department does. So it becomes an unfunded 
mandate that our universities have to again work with--not that 
important. I'm talking about the police--right now the Drexel 
University patrols north of Powelton Street, south of Spring 
Garden, between 32nd and 36th Street. We patrol 15 city blocks 
that don't belong to the college.
    Chairman Specter. Does the Philadelphia Police Department 
not patrol that area?
    Mr. Papadakis. No. We patrol. And we patrol it because 
otherwise nobody would.
    Chairman Specter. Do you think the Clery Act is a good act, 
Dr. Papadakis?
    Mr. Papadakis. Excuse me, Mr. Chairman?
    Chairman Specter. Do you think the Clery Act is a useful 
Act, a good Act?
    Mr. Papadakis. Absolutely. We want the people to be 
informed. As I said earlier on, my recommendation would be to 
try to consolidate the Federal requirements and state 
requirements, then you have one report instead our people 
working with two reports.
    And because our individual school would interpret those 
crime statistics are not necessarily school or highly paid nor 
highly educated, the structure should be very distinct and we 
should be able to tell them exactly what qualifies and what 
does not qualify, as the example I brought out about the crime 
that started outside the Clery boundary and ended up inside the 
Clery boundary. How do you expect our monitor who is 
interpreting this information to decide? They made a decision.
    Now, you may say well, this person or maybe the president 
should go to prison because this was misinterpreted. But the 
fact is that the individual made a judgment call, and the 
judgment call was that this was not reportable because it 
happened in the train station, outside Drexel.
    So, that is the issue with the boundaries and consolidation 
of state and Federal would made our life much easier, Mr. 
Chairman, and I think also would take away the question marks 
that have been raised by the press and also by you and the 
committee.
    Chairman Specter. Dr. Papadakis, I don't think anybody 
wants to send the president to prison. I don't think so. 
Certainly none of those present here today. Maybe some of those 
who are absent.
    [Laughter.]
    Chairman Specter. You don't sign the report, do you, Dr. 
Papadakis, for the Clery Act?
    Mr. Papadakis. No, I don't. Because nobody asked me to. 
Like the Sarbanes-Oxley, chief executives sign the report and 
take responsibility for it, like financial statements and the 
surveys. As you probably know, Drexel has volunteered to 
implement Sarbanes and we're very happy to certify whatever is 
required of us. But as I said, nobody has asked me to sign a 
report.
    Chairman Specter. Dr. Adamany, do you think it would be 
helpful or appropriate to have the president of the university 
sign? Dr. Papadakis accurately refers to Sarbanes-Oxley, which 
is widely criticized by corporate executives as being unduly 
burdensome. You do administer a big university, in a big part 
of the city of Philadelphia, so do you think it would be 
appropriate to ask, or would there be better enforcement if, 
the president were required to sign it?
    Mr. Adamany. Quite frankly, Senator, I don't. We're already 
required to sign certain audit reports, reports to the NCAA.
    Anybody who believes that a university president with broad 
responsibilities is reading through hundreds or thousands of 
pages of reports that are being filed is really misled. And 
while I know they all attest that they do it, if you'll forgive 
me for being just a bit skeptical that the CEOs of large 
corporations are reading and verifying all of the data.
    Chairman Specter. You don't think that the CEO would have 
any more incentives to dig in?
    I'll take a 1-minute leave from questioning you to tell you 
a short story of the autobiography of Charles Evans Hughes, who 
became Justice of the Supreme Court, later Chief Justice, and 
ran for President.
    He was an insurance investigator for the State of New York 
shortly after the turn of the 20th century, and he would 
interview CEOs of insurance companies. And one day he walked 
into the office of the chief executive officer and the 
secretary brought a big stack of papers, and one after another 
the CEO signed them without reading them. Charles Evans Hughes 
said to the corporate officer, Do you always sign vouchers 
without reading them? The man said, Hell, I thought those were 
affidavits.
    [Laughter.]
    Chairman Specter. Ms. Rush and Mr. Mattioli, law 
enforcement officers, police officers, do you think it would 
make any difference in compliance if there was, as Dr. 
Papadakis put it, a jail sentence for the president at the end 
of the trail as opposed to a fine? Would that improve 
motivation and deterrence? You two have been experienced in 
this field.
    Ms. Rush. I would think that that would not be any more a 
deterrent, but I do think Federal funds to universities being 
withheld would certainly be a wake-up call for people.
    Chairman Specter. Tougher to withhold your money than send 
you to jail?
    Ms. Rush. I think jail would be time off, or a vacation.
    [Laughter.]
    Chairman Specter. In Philadelphia hardly anyone goes to 
jail anyway, except in the Federal court.
    [Laughter.]
    Chairman Specter. What do you think, Mr. Mattioli?
    Mr. Mattioli. No, I don't think jail would be necessary 
either. But with fines, I was surprised to find out there were 
only three. I've been afraid of the Clery audits for the last 
10 years.
    Chairman Specter. You think now that you know there were 
only three you won't be so diligent? I think that was a bad 
statistic to disclose.
    [Laughter.]
    Chairman Specter. Reverend Stack, has the Department of 
Education ever contacted your university?
    Reverend Stack. Not that I'm aware of, with regard to Clery 
reporting.
    Chairman Specter. Mr. Turzanski, has the Department of 
Education, to your knowledge, ever contacted LaSalle?
    Mr. Turzanski. We're in discussion with the Department over 
those events that I referenced from 2003-2004.
    Chairman Specter. Over your reporting of the Clery Act?
    Mr. Turzanski. It was not reporting with Clery Act, it was 
sharing information with staff concerning their obligations 
under Clery.
    What we had were two coaches who, it was alleged, did not 
tell an alleged victim where she could go to report a problem 
she had.
    Chairman Specter. OK. So that's information. But nobody has 
ever contacted LaSalle and said ``We've taken a look at your 
report and we think it's insufficient? ''
    Mr. Turzanski. No, sir.
    Chairman Specter. Has anyone, of any of the educational 
institutions here, been contacted by the U.S. Department of 
Education to raise a question about the reporting under the 
Clery Act?
    Mr. Papadakis. No. We have actually been contacting them 
asking questions.
    Chairman Specter. Mr. Carter, you have something to say, 
but first I'll ask you a question.
    Do you think that it is conceivable that there is adequate 
enforcement of the Clery Act with only three fines in 20 years?
    Mr. Carter. Three fines are not adequate. Certainly not 
every school that is found in violation should be fined, but 
for those 17 where serious violations have warranted a thorough 
review, fines should have been seriously considered in every 
single one of those cases and I know they were not.
    And I would also recommend that for those serious cases, 
that's when the Department of Justice should be involved.
    Chairman Specter. Do you think, Dr. Adamany, that if there 
was scrutiny, not necessarily at Temple but just broadly, 
generically, it would doubtless lead to some infractions, you 
can't run all the universities and colleges in America for 20 
years and have only three infractions, that can't be done, and 
that if tougher enforcement or some enforcement was present and 
some fines were imposed that there'd be better reporting, more 
accurate reporting?
    Mr. Adamany. I think regular review of the reports by the 
Department, perhaps on a random basis, a rotating basis, and 
where there is a preliminary finding if the reports are 
inadequate, a more thorough audit would be very good.
    It would be good not only for the institution that was 
under scrutiny, but because our higher education associations 
provide us information relatively quickly, that there is a 
level of scrutiny and I think everybody would pay more 
attention to this.
    I actually favor outside review and auditing of the 
university, not only in this respect but in many others. It 
does help us, and even if done only randomly it alerts all of 
the institutions.
    Senator, if I may make one other point about the 
dysfunction between the two statutes, the Pennsylvania 
statute--
    Chairman Specter. Sure. And then I'll come to you, Reverend 
Stack.
    Mr. Adamany. In addition to the difference in the reporting 
requirements, there is a difference in filing dates, and that 
seems to be totally nonfunctional.
    Chairman Specter. A difference in what?
    Mr. Adamany. Filing dates. Because one report may report 
certain statistics, the other report reports not only different 
matters but reports a different time period, and it's 
inevitable that there's going to be public confusion or 
confusion in the press, because these numbers don't jibe.
    So, to any extent that Federal and state regulations can be 
brought into conformance, that is helpful to all of us.
    Chairman Specter. Reverend Stack.
    Reverend Stack. Senator, I think it might be a mistake to 
conclude that because there's so few fines that that's a 
problem. I think that from the time the Clery Act was enacted 
that initially schools were on their own to try to figure out 
how to report it accurately, and then as they got feedback over 
time, those that did, they clarified that. I think that, as Dr. 
Papadakis said, there were differences of opinion in terms of 
the judgment about how to interpret certain things in the Clery 
Act.
    I believe that the information that was published in 2005 
that really more clearly does identify, maybe takes away some 
of the gray areas in interpreting the Act, will lead to a more 
uniform reporting over time.
    It's a shame it took as long as it did to get to that 
point. I think that's going to make a difference.
    Chairman Specter. Well, I think that there's no doubt that 
there's a lot of confusion, a lot of areas of misunderstanding, 
and nobody wants to fine anybody for that. But there have to 
be, in this magnitude, this universe of reporting, some serious 
violations, and enforcement is designed to help the 
universities do their job and to keep people on their toes, and 
people respond.
    Dr. Adler, do you think the Inquirer article--and I'll ask 
you, Dr. Papadakis, and I expect two different answers--do you 
think the Inquirer article was useful in alerting people and 
putting people a little more on their toes?
    Ms. Adler. I think that it is and I think it alerted us 
even though, generally speaking, our crime statistics are very, 
very low, it alerted us to be more conscious of what we needed 
to do, and I agree that there needs to be more--that I would 
welcome further study of us on that, but at the same time, I 
think it has to come with help from the Department of Education 
to help clarify definitions and to help train our people, as 
Dr. Papadakis said, in responding to that. Couple that with 
greater enforcement I think would make the Clery Act a much 
more powerful tool for us.
    Chairman Specter. Let me ask for a show of hands of those 
of you who thought the Inquirer article was helpful.
    [All panel members raised hands.]
    Chairman Specter. Well, that's a fairly good consensus. I'm 
sure that will lead the Philadelphia Inquirer article tomorrow. 
If there is a Philadelphia Inquirer article.
    [Laughter.]
    Mr. Papadakis. It's doubtful that the journalist should 
delve into this subject in more depth so they understood better 
the communications and differences between the two Acts and--
despite the fact that all of us agreed that the article was 
helpful in bringing out a subject that some of our citizens in 
Philadelphia don't probably know about this. Not everybody in 
the United States knows what the Clery Act is. So bringing 
awareness, I'll agree that the article was worthwhile. But 
trying to be sensational, it was not.
    Chairman Specter. Well, I know what you mean, Dr. 
Papadakis. There was once a newspaper article about me that 
could have been more carefully researched. But it wasn't by the 
Philadelphia Inquirer or any Pennsylvania newspaper.
    [Laughter.]
    Chairman Specter. Anybody else want to make a concluding 
comment?
    Ms. Rush. Mr. Chairman, I'd just like to go back to the 
educational component. Steve Heeley is in the audience, and he 
is the incoming president of the IACLEA, International 
Association of Campus Law Enforcement Administrators, Daniel 
Carter, Security On Campus, all come to our conferences, and 
I've been with campus law enforcement for 11 years, and that 
whole time every conference this issue has been--the room is 
standing room only. These people are thirsty for information on 
how to interpret the DOE regulations.
    We've gotten, over the years, the Dear Colleague letters 
but, again, it wasn't until 2005 that we had the extensive 
booklet. So, again, was it a mistake at hand or a mistake at 
heart? I think there are some outliers out there who maybe are 
purposely trying to withhold information, but I think they're 
few and far between. I think the real issue is we all strive to 
get it right and it's difficult sometimes to--you know, 
contiguous, noncontiguous, the public property, there's so many 
categories and it changes every year.
    So I think having a lot more education, having the Clerys 
put this program on in October is a great start and more and 
more continuing education would be really helpful.
    Chairman Specter. Concluding statement, Dr. Adamany.
    Mr. Adamany. Yes. Thank you. Senator, I want to thank you 
for holding the hearings. I think all of us want to do better. 
My day starts on a high note when I turn on that computer and 
there is no crime reported on my campus. Every one of us wishes 
for the welfare and safety of every one of the young people 
entrusted to us.
    By holding these hearings raises public information, raises 
awareness and raises awareness on the campuses and gives us a 
chance to suggest ways for this process to improve.
    I'd like to thank you on behalf of all the members, thank 
you for holding the hearings and keeping this issue alive.
    Chairman Specter. I appreciate your comment.
    Mr. Carter.
    Mr. Carter. Sir, if I could just make a few brief 
concluding comments.
    Unfortunately, for 15 years in many respects the Clery Act 
has been a toothless tiger. There's been not enough adequate 
enforcement, and that has got to change. On the other side, 
we've also got to do a better job of educating schools, as with 
your help we've been able to do, and we're going to continue to 
do that.
    I've seen two things I take away from the panel today. We 
need to do a better job of involving more people in this campus 
policing and security issue. I heard several references to 
conferences for campus police, references to how the police are 
handing this. Campus crime in the Clery Act is not just a 
campus police or security matter. Everyone from the president 
on down, especially people at the level of vice president of 
Student Affairs, need to be actively involved in the Clery Act.
    We need to enhance understanding of how victims of crime 
should be treated. The comment that I heard earlier today about 
we're doing well if we just misplaced a piece of paper, that 
doesn't cut it. And that victim is in the audience today and I 
could tell she was upset by that.
    Thank you.
    Chairman Specter. Thank you all for coming today and thank 
you, more fundamentally, for the jobs you are doing in your 
colleges and universities. You're doing a great educational 
service.
    And I want to thank the Constitution Center and President 
Rich Stengel and Joan Specter for opening their facilities to 
us today. And I want to thank Connie Clery and Benjamin Clery 
and the Clery family for what they have done, and the tragedy 
from Jeanne Clery's brutal rape and murder, I think, has 
produced awareness on a very critical issue.
    And there are some good suggestions, we're going to take a 
look, maybe we ought to include theft or maybe vandalism as 
well. Maybe we ought to see if there could be some 
standardization. That's kind of hard to do with the Federal 
Government, all 50 states in conformity, but it would certainly 
ease the administrative burden, which you have plenty of, 
beyond any question.
    But I think this is constructive and I think the Inquirer 
article was helpful, it's a wake-up call. Not perfect, but the 
U.S. Senate certainly isn't.
    That concludes our hearing.
    [Whereupon, at 3:56 p.m., the Committee was adjourned.]
    [Submissions for the record follow.]
    [Additional material is being retained in the Committee 
files.]

[GRAPHIC] [TIFF OMITTED] T0043.001

[GRAPHIC] [TIFF OMITTED] T0043.002

[GRAPHIC] [TIFF OMITTED] T0043.003

[GRAPHIC] [TIFF OMITTED] T0043.004

[GRAPHIC] [TIFF OMITTED] T0043.005

[GRAPHIC] [TIFF OMITTED] T0043.006

[GRAPHIC] [TIFF OMITTED] T0043.007

[GRAPHIC] [TIFF OMITTED] T0043.008

[GRAPHIC] [TIFF OMITTED] T0043.009

[GRAPHIC] [TIFF OMITTED] T0043.010

[GRAPHIC] [TIFF OMITTED] T0043.011

[GRAPHIC] [TIFF OMITTED] T0043.012

[GRAPHIC] [TIFF OMITTED] T0043.013

[GRAPHIC] [TIFF OMITTED] T0043.014

[GRAPHIC] [TIFF OMITTED] T0043.015

[GRAPHIC] [TIFF OMITTED] T0043.016

[GRAPHIC] [TIFF OMITTED] T0043.017

[GRAPHIC] [TIFF OMITTED] T0043.018

[GRAPHIC] [TIFF OMITTED] T0043.019

[GRAPHIC] [TIFF OMITTED] T0043.020

[GRAPHIC] [TIFF OMITTED] T0043.021

[GRAPHIC] [TIFF OMITTED] T0043.022

[GRAPHIC] [TIFF OMITTED] T0043.023

[GRAPHIC] [TIFF OMITTED] T0043.024

[GRAPHIC] [TIFF OMITTED] T0043.025

[GRAPHIC] [TIFF OMITTED] T0043.026

[GRAPHIC] [TIFF OMITTED] T0043.027

[GRAPHIC] [TIFF OMITTED] T0043.028

[GRAPHIC] [TIFF OMITTED] T0043.029

[GRAPHIC] [TIFF OMITTED] T0043.030

[GRAPHIC] [TIFF OMITTED] T0043.031

[GRAPHIC] [TIFF OMITTED] T0043.032

                                 <all>

</pre></body></html>
